U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


             USE OF THE
  GOVERNMENTWIDE PURCHASE CARD,
      U.S. GEOLOGICAL SURVEY

             REPORT NO. 98-I-316
                MARCH 1998
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington.D.C. 20240

                                                       MAR 18 19%
MEMORANDUM

TO:                            The Secretary
                                                                   &jA/-.
FROM:                          Robert J. Williams fl&         ,{
                               Acting Inspector General       ”

SUBJECT SUMMARY:               Final Survey Report for Your Information - “Use of the
                               Governmentwide Purchase Card, U.S. Geological Survey”
                               (No. 98 -1-316)

Attached for your information is a copy of the subject final survey report. The objective of
the survey was to determine whether the U.S. Geological Survey managed the
Governmentwide Purchase Card Program in accordance with applicable laws, regulations,
and guidelines.

We found that the Geological Survey’s approving officials either did not certify the
cardholders’ statements or certified the statements without obtaining vendor invoices or
itemized receipts to verify that some items purchased were for valid Government purposes.
We also found that cardholders either allowed noncardholders to use their card, did not
maintain telephone logbooks, or split orders.        In addition, cardholders did not always
adequately safeguard their purchase cards. The deficiencies occurred because (1) approving
officials did not perform all of the required review procedures; (2) the OffLze of Acquisition
and Federal Assistance did not perform periodic reviews of the Purchase Card Program;
and (3) the Geological Survey did not provide adequate training to cardholders and approving
officials in the areas of acquiring, documenting, and reviewing purchases. As a result, the
Geological Survey did not have reasonable assurance that improper uses of the purchase
cards would be prevented or detected in a timely manner.

Based on the Geological Survey’s response to the draft report, we considered four of the
report’s five recommendations resolved and implemented and requested the Geological
Survey to reconsider its response to the remaining recommendation, which is unresolved.

If you have any questions concerning this matter, please contact me at (202) 208-5745.

Attachment
                                                                      E-I-N-GSV-0 17-96


            United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                  Washington,D.C. 20240




                              SURVEY REPORT

Memorandum

To:       Director, U.S. Geological Survey

From:     Robert J. Williams f &&f   ‘, bLcah-y
          Acting Inspector General d

Subject: Survey Report on the Use of the Governmentwide Purchase Card,
         U.S. Geological Survey (No. 98-I-3 16)


                               INTRODUCTION

This report presents the results of our survey on the use of the Governmentwide purchase
card at the U.S. Geological Survey in Reston, Virginia. The or$inal objective of the
review was to determine whether the Geological Survey managed the Governmentwide
Purchase Card Program in an effkient and economical manner and in accordance with
applicable laws, regulations, and guidelines. However, during our survey, the General
Accounting Offtce issued the report entitled “Acquisition Reform: Purchase Card Use
Cuts Procurement Costs, Improves Efficiency” (No. GAO/NSIAD-96- 138) on August 6,
1996. The report stated: “Agencies have found they can support their missions at reduced
costs by having program staff use the purchase card for simple purchases. Further,
agency studies have shown that purchase card use reduces labor and payment processing
costs.” Based on these statements, we revised our objective to address the management
of the Geological Survey’s Program rather than the Program’s efficiency and economy.

BACKGROUND

In 1989, the General Services Administration awarded a contract to Rocky Mountain
BankCard System to provide credit card services within the Federal Government. The
card was intended to streamline the small purchase and payment processes. The
Bat&Card System issued instructions on the proper use and approval of items purchased
with the credit cards as follows: (1) Cardholder Instructions for the Use of the
Governmentwide Credit Card and (2) Approving Official Instructions for the Use of the
Govemmentwide Credit Card. In April 1990, the Geological Survey implemented the
Governmentwide Purchase Card Program. On June 28,1990, the Department of the Interior
issued the “Handbook for Utilization of the Governmentwide Commercial Credit Card,”
under Department of the Interior Acquisition Policy Release 90-35. In December 1994, the
Geological Survey issued its guidance in the revised “Supplemental Bankcard Handbook,”
which augmented the cardholder instructions issued by the Bankcard System and by the
Department of the Interior.

At’the Geological Survey, the purchase cards are used primarily for the acquisition of
supplies and services costing $2,500 or less. The Geological Survey’s Office of Acquisition
and Federal Assistance is responsible for administering and managing the Govermnentwide
Purchase Card Program.

On a monthly basis, the BankCard System submits invoices to the Geological Survey’s
Offtce of Financial Management, in Reston. The monthly invoices represent the aggregate
credit card amounts for each Geological Survey division. In addition, the BankCard System
submits to each cardholder a monthly statement that itemizes the cardholder’s transactions.
Upon receipt of the monthly cardholder statement, the cardholder is required to reconcile the
statement with the transaction documentation and certify that all purchases listed on the
statement are accurate and were made for official Government purposes. The cardholder is
required to forward the certified statement and all supporting documentation to the cognizant
approving official. The approving offtcial is required to review the cardholder’s statement
and supporting documentation and to certify that the cardholder’s purchases were made for
valid Government purposes. The BankCard System also submits to each approving official
a statement that lists monthly purchase amounts made by all cardholders assigned to the
approving official.

The use of the purchase card within the Geological Survey has increased significantly since
the first year the Program was started in 1990 and has continued to increase to approximately
3,000 purchase cards nationwide as of September 30,1996, as shown in the following table:

                                   1990            1994            1995           1996
Purchase Cards                         100           1,200           2,100          3,000
Purchase Transactions                 900          29,000           57,000         84,000
Purchase Amount                  $129,000      $3,660,000     $11,130,000     $21,200,000

SCOPE OF SURVEY

Our survey included purchases made with the Government purchase card by Geological
Survey employees in Reston during the 5-month period of October 1,1995, through February
28, 1996. We judgmentally selected 462 purchases, totaling $313,244, made by 32
cardholders and reviewed by 11 approving officials. These cardholders and approving
offtcials were selected based on the highest dollar value transactions for the period reviewed.



                                              2
Our survey was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. In
planning our survey, we reviewed the Secretary’s Annual Statement and Report to the
President and the Congress, which is required by the Federal Managers’ Financial Integrity
Act, for fiscal year 1995 and determined that there were no reported weaknesses related to
the objective and scope of our survey.

We also evaluated the Geological Survey’s system of internal controls related to purchase
card activities and found weaknesses in the areas of approving officials’ reviews, card
security, card usage, purchase limits, and telephone order logbooks. We also determined
that the Geological Survey did not provide adequate oversight of purchases made with the
card. These weaknesses and the recommended corrective actions are discussed in the Results
of Survey section of this report. The recommendations, if implemented, should improve the
internal controls in these areas.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports during the past 5 years concerning the Geological Survey’s management of the
Governmentwide purchase card that specifically addressed our revised survey objective.
However, as discussed previously, the General Accounting Office’s August 6,1996, report
stated that agency studies revealed that use of the purchase card reduced labor and payment
processing costs. Although the Department of the Interior was included in the study, no
findings were directly related to the Department.



                             RESULTS          OF SURVEY

We found that for 138 ($98,879) ofthe 462 ($3 13,244) transactions reviewed, the Geological
Survey’s approving officials either did not certify the cardholders’ statements or certified the
statements without obtaining vendor invoices or itemized receipts to verify that the items
purchased were for valid Government purposes. We also found that for 193 transactions,
totaling $193,036, cardholders either allowed noncardholders to use their card, did not
maintain telephone logbooks, or split orders.         In addition, we found that 7 of the 32
cardholders reviewed did not adequately safeguard their purchase cards. The instructions and
procedures for the use of the Governmentwide purchase card are included in the Bankcard
System’s Cardholder Instructions and Approving Officials Instructions, the Department’s
“Handbook,” and the Geological Survey’s “Handbook.” The deficiencies occurred because
(1) approving officials did not perform all of the required review procedures; (2) the Office
of Acquisition and Federal Assistance did not perform periodic reviews of the Purchase
Card Program; and (3) the Geological Survey did not provide adequate training to


                                               3
cardholders and approving offtcials in the areas of acquiring, documenting, and reviewing
purchases. As a result, the Geological Survey did not have reasonable assurance that
improper uses of the purchase cards would be prevented or detected in a timely manner.

Approving      Officials’ Review

 Section IV of the Department’s‘ “Handbook” states that the approving officials are
responsible for (1) maintaining a current listing of all cardholders under their purview, (2)
reviewing cardholders’ transactions and performing a monthly reconciliation and certification
of each cardholder’s statement against the monthly statement submitted to the approving
officials by the Bankcard System, (3) verifying that all transactions were made for valid
Government purchases, and (4) ensuring that all goods and/or services have been received.
 After certifying that the cardholders’ statements are accurate, the approving official is to
forward the original statements to the finance office. In order to adequately verify that the
purchases made by the Geological Survey’s cardholders are valid and for official
Government purposes, approving officials need to (1) review the approving officials’
statements to ensure that all cardholders submitted their statements; (2) review all of the
documentation, such as invoices or itemized receipts, required by the Department’s
“Handbook” and by the Geological Survey’s “Handbook”; and (3) ensure that a description
of the items purchased is annotated on the statement by the cardholder and that the statement
is in agreement with the description on the invoice or the itemized receipt.

We found that for 138 (30 percent) of the 462 transactions we reviewed, all of the 11
approving officials either did not certify the cardholders’ statements or certified the
cardholders’ statements without documents such as vendor invoice3 or itemized receipts to
verify that the purchases were valid and for official Government use. In addition, 6 of the
 11 approving officials did not reconcile the cardholders’ statements to the corresponding
approving officials’ statements to ensure that all cardholders who made purchases submitted
their statements. Examples of the lack of certification and/or documentation and the lack of
the approving officials reconciliation efforts are as follows:

     - A cardholder’s statement containing 10 transactions, valued at $3,218, was paid, even
though the approving official in the Geologic Division had not certified that the purchases
were valid and necessary. According to the description provided by the cardholder on the
statement, these purchases consisted of items such as computer memory, plotter supplies,
and software. The approving official stated that she did not sign this particular statement
because the cardholder never provided the statement to her for review and that without this
statement, there was no way of knowing that the cardholder had used the purchase card.
However, this discrepancy would have been identified if the approving official had reviewed
and reconciled the cardholder’s statement to the approving official’s statement.

     - An approving official in the Geologic Division approved 21 transactions, valued at
$19,044, even though the cardholders did not provide vendor invoices or itemized receipts


                                             4
in support of the purchases. In addition, the cardholders had not provided a detailed
description for $17,018 of the $19,044 in transactions, as required by the Geological
Survey’s “Handbook.” According to the descriptions provided by the cardholders for the
remaining purchases of $2,026, items such as computer disks, laboratory s\upplies, and
software were purchased. The approving official stated that he instructed his secretary to
review the transactions and that, based on her review, he signed the cardholders’ statements.
The secretary, however, did not compare the cardholders’ statements with the invoices and
receipts supporting the statements. In addition, the approving official told us that he did not
reconcile the approving official’s statement with cardholders’ statements because the
approving official’s statement was “redundant” and “did not really serve any purpose.”

     - A Geologic Division approving official who approved 13 transactions, valued at
$8,665, that did not have supporting invoices and receipts had delegated the review of
cardholder statements to her Administrative Operations Assistant. According to the
description provided by the cardholder on the statements, the items purchased included
laptop computers, a modem, and various software. The approving offtcial signed the
statements based on the Assistant’s review. The approving official told us that she did not
compare the approving official’s statement with the cardholders’ statements because by the
time she received the approving official’s statement, the cardholders’ statements had already
been reviewed and sent to the finance office.

      - A Water Resources Division employee who was not an approving official certified a
statement for purchases totaling $1,067. Although the Geological Survey “Handbook”
allows a “responsible employee” to certify the cardholders’ statements when the approving
officials are not available, the Division employee stated that he ehad not received any
purchase card training and was unaware ofthe certification requirements. The employee also
acknowledged signing cardholders’ statements on more than one occasion. In addition, the
approving official informed us that he did not reconcile the approving official’s statement
with the cardholders’ statements.

By not reviewing itemized receipts and invoices and by not reconciling the approving
official’s statement with the cardholders’ statements, inappropriate purchases could be made
and not be detected. For example, although the Geological Survey’s Doraville, Georgia,
office was not included in our review, an August 1996 investigation conducted by the
Assistant Inspector General for Investigations found that a cardholder in the Doraville office
used the Government purchase card for personal use and was subsequently criminally
prosecuted and found guilty. The items purchased over a 9-month period totaled $25,633 and
included food, clothing, gasoline, toys, cellular telephone service, videos, and computer
games. Whenever the approving official asked the cardholder whether the purchase card was
used, the cardholder stated that it had not been used. However, if the approving official’s
statement had been reviewed and reconciled as required, the approving official would have
known in the first month of the card’s use that the card had been used for personal items.



                                              5
Other Deficiencies

Geological Survey cardholders did not follow purchase card procedures for 193 purchases,
totaling $193,036. Specifically, we found that (1) individuals who were not authorized
cardholders made five purchases, (2) the purchase card limit was exceeded on 39 purchases,
and (3) cardholders did not always maintain a written logbook for 149 purchases made by
telephone. As a result, the potential existed for items to be purchased that were not for valid
Government purposes.

       Unauthorized       Use. The Department’s “Handbook” (Section X) and the Geological
 Survey’s “Handbook” (Section 4A(l)) require that the purchase card be used only by the
cardholder. However, we found that for five purchases, totaling $9,560, the sales receipts
were signed by three individuals who were not the authorized cardholders. The Chief,
Branch of Facilities Management, said that in those instances, receipts were signed in the
absence of the cardholder and with the knowledge that the cardholder had previously
authorized and placed the call for the purchases. The Chief further stated that he would
establish guidelines which stated that the only signature acceptable was that of the authorized
cardholder. In our opinion, employees who are not cardholders but who receive delivery of
purchases ordered by telephone should be instructed to print the words “phone order” on the
sales draft and sign their name and “received by” next to their signature. The receipt should
then be provided to the cardholder for use in reconciling the monthly statement.

       Split Purchases.   The Department’s “Handbook” (Section VII) and the Geological
Survey “Handbook” (Section 4(6)) state that purchases should not be split to avoid the
single purchase limit. The single purchase limit established by the Geological Survey was
$2,500. However, we found that the cardholders split 16 orders for similar items from the
same vendors into 39 orders, totaling $65,268. The total amount paid to each of the vendors
for the items exceeded the single purchase limit of $2,500. For example, an employee in the
Information Systems Division requested that a cardholder purchase computer equipment.
On September 22, 1995, the cardholder placed two separate orders with the same vendor for
the equipment in the amounts of $2,424 and $290, respectively. For another purchase, a
cardholder made separate purchases for two computers of $2,152 each from the same vendor.
The requests for the purchase of these two computers were received on the same day;
however, the cardholder placed the order with the vendor on two separate days.

      Telephone    Order Logbooks.      The Department’s “Handbook” (Attachment C) and
the Geological Survey’s “Handbook” (Section 4A(5)) require that purchase card users
maintain a logbook of all transactions made by telephone. Each purchase card transaction is
to be entered in the logbook at the time the order is placed. The logbook is maintained so
that individual and cumulative costs of orders can be tracked to ensure that the delegated
monthly limit is not exceeded. The monthly limit is the amount each cardholder may spend
in a 30-day period and is established by the approving official based on anticipated usage and
budgetary considerations. The monthly limit for the cardholders reviewed ranged from


                                              6
$5,000 to $25,000. We found that cardholders did not maintain a logbook for 149 telephone
purchases, valued at $121,126. We concluded that because cardholders did not follow
purchase card procedures, there was an increased risk that the card could be used for personal
use and that purchase limits could be exceeded.

Card Security

The Department’s “Handbook” (Section X) states that purchase cards should be safeguarded
in the same manner as cash. The Geological Survey’s “Handbook” states that protecting the
card from loss or theft is the responsibility of the cardholder. The Geological Survey’s
“Handbook” further states that the card should be kept in a safe place.

We found that 7 of 32 cardholders in our sample were not properly safeguarding their
purchase cards in that they kept their cards in unlocked desk or file cabinet drawers. In
addition, one cardholder posted the purchase card number on a bulletin board outside his
work station. The lack of security over purchase cards increases the potential for cards to be
lost, stolen, or used for inappropriate purposes.

Oversight Reviews

In accordance with the Geological Survey Manual, the Office of Acquisition and Federal
Assistance and the Office’s regional branches conduct reviews ofpurchase card transactions
as part of the Office’s small purchase reviews of regions and makes recommendations to the
field offices regarding any deficiencies identified. The Eastern Region has 39 field offrices.
According to the Geological Survey Manual, reviews are to be cbnducted every 4 years.
However, the Reston office has never been reviewed. Our examination of reviews that had
been performed at eight field offices in the Eastern Region indicated that purchase card
transactions were included in the reviews and that deficiencies such as the purchase of
personal items, unauthorized purchases, split purchases, and the absence of a logbook were
identified in the Purchase Card Program. Recommendations were made by the review team
to address the deficiencies identified. Since the procedures used by the team for reviewing
purchases were not documented, we could not determine whether the review team verified
that approving officials were performing all of the required review procedures. Therefore,
we were unable to determine whether the reviews were complete.

In conclusion, the Geological Survey was not adequately performing its oversight
responsibilities of the Purchase Card Program. By not including the Reston office in its
scheduled reviews and by not documenting the review procedures used, the Geological
Survey was not ensuring that all cardholders and approving officials were complying with
Departmental and Geological Survey requirements when using the purchase card. As a
result, the Geological Survey could not ensure that all items purchased were for valid
Government purposes.



                                              7
Training

The Department’s “Handbook” (Section VI) states: “All approving officials and cardholders
must receive training on the use of the Governmentwide credit card program,. its features,
bureau procedures, and, as appropriate, small purchase procedures, upon or immediately
following designation. In all cases, appropriate training must be received prior to cardholder
receipt of the credit card.”

The Geological Survey had not provided formal training to any of the cardholders or
approving officials during the period of our review. However, Geological Survey personnel
responsible for managing the Purchase Card Program stated that, in lieu of formal training
courses, they relied on signed certifications from the cardholders stating that the cardholders
had read the Geological Survey’s “Handbook” and that they understood the requirements
for the proper use of the purchase card. However, based on the deficiencies that we found,
we believe that this method of training was not completely effective.

In February 1995, the Geological Survey developed a formal training course and presented
it at two pilot sessions. In February 1996, the course, for which attendance was voluntary,
was revised and presented at the Reston location, where it was attended by 2 of the 11
approving officials and 8 of the 32 cardholders included in our review. Since there were no
outlines of the course contents or evaluations of the courses, we were unable to determine
whether the training was adequate, Also, we believe that the training should be mandatory
for all cardholders and approving officials.


Recommendations

We recommend that the Director, U.S. Geological Survey:

      1. Ensure that approving officials follow the review procedures established by the
Department and the Geological Survey when certifying cardholders’ statements.

       2. Ensure that cardholders comply with the purchase card policies and procedures
concerning unauthorized purchases, split purchases, and telephone orders.

      3. Ensure that purchase cards are adequately safeguarded.

       4. Ensure that written procedures are developed for documenting the review of
purchase card transactions and that the Geological Survey’s Reston office is included in the
schedule for these reviews.

       5. Ensure that cardholders and approving officials receive adequate training in the
proper use of the purchase card.



                                              8
U.S. Geological      Survey Response and Offke of Inspector General Reply

In the January 8,1998, response (Appendix 1) to our draft report from the Associate Director
for Operations, the Geological Survey generally agreed with the finding and
recommendations and provided suggested changes to the report, which we incorporated as
appropriate. Based on the response, we consider Recommendations 1,2,4, and 5 resolved
and implemented and request that the Geological Survey reconsider its response to
Recommendation 3, which is unresolved (see Appendix 2).

Regarding Recommendation 3, the Geological Survey’s “Handbook” instructs cardholders
to keep their purchase cards in a safe place and not to allow others to use their cards.
However, as stated in our report, we found that this requirement, which was in effect during
our review, was not always complied with. Therefore, the Geological Survey should state
what actions it is taking to ensure that cardholders are safeguarding their purchase cards and
the purchase card account numbers. Specifically, we suggest that the Geological Survey issue
a notice to all cardholders which states that purchase cards should not be kept in unlocked
desks or file cabinets and that the purchase card account number should not be posted for
public viewing. In addition, the safeguarding of purchase cards should be included in the
Geological Survey’s review of the purchase card program.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by April 15, 1998. The response should provide the information
requested in Appendix 2.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of Geological Survey personnel in the conduct of our survey.
                                                                                         APPENDIX 1
                                                                                         Page 1 of 3



               United States Department of the Interior
                                  U.S. GEOLOGICAL SURVEY
                                       Office of the Director
                                       Reston. Virginia 20192




In Reply Refer To:
Mail Stop 105
#lo427
                                                                             JAN 08 1998

                                       MEMORANDUM


To:      Assistant Inspector General foi Audits

From:    Barbara J. Ryan
         Associate Director

Subject: Draft Survey Report on the Use of the Governmentwide Purchase Card,
         U.S. Geological Survey (Assignment No. E-IN-GSV-017-96)

This memorandum is in response to your November 25, 1997, draft audit report on the Use of the
Governmentwide Purchase Card. Although we were provided the oppomity         to comment on the
Preliminary Draft, we have a few additional comments that were inadvertently missed.

         Page 10 (last paragraph): The investigation referred to was conducted in Doraville,
         Georgia, not Atlanta. We would also suggest that the Inspector General indicate that
         criminal prosecution of the employee ensued.

         Page 14 (section entitled “Oversight Reviews,” paragraph one, sixth line): Change
         reference to field reviews occurring “every 2 to 3 years” to “every 4 years.” Survey
         Manual Chapter 401.2.6.A.( l)(a) states, “Offices responsible for conducting
         Acquisition Management Review (AMR’s) will ensure field offices under their
         cognizance are reviewed at least once every 4 years.”

Any questions or comments concerning this issue may be addressed to Marty Eckes, Chief,
Program Operations Office, on (703) 648-4430. Our responses to your recommendations are as
follows:

Recommendation      1: Ensure that approving officials follow the review procedures established
by the Department of the Interior (DOI), and the U.S. Geological Survey (USGS), when
certifying cardholder’s statements.




                                                  10
                                                                                             APPENDIX 1
                                                                                             Page 2 of 3




Response:      Since the period covered by this review, the USGS Office of Acquisition and Federal
Assistance (OAFA) has emphasized, through memoranda and in training sessions, the
importance of the approving official’s review and that this review is the primary safeguard
against waste, fraud, and other misuse by cardholders. A memorandum dated March 27, 1997.
was issued by OAFA reminding approving officials of their responsibility as a review official
and of other rules governing card use. -An e-mail message to all employees was sent on
September 27, 1996, describing bankcard program problems and offered suggested methods of
prevention, and again emphasized the importance of increased monitoring for management
control. In addition to the above efforts to educate approving officials and emphasize their
responsibilities, all records and transaction documentation are now subject to review via an AMR
or a statistical sampling program.

Recommendation     2: Ensure that cardholders comply with the purchase card policies and
procedures concerning unauthorized purchase, split purchases, and telephone orders.

Response: In addition to our AMR program for reviewing the practices at field offices, the
USGS has implemented two additional bureauwide review and oversight processes. In
September 1996, the USGS Office of Financial Management (OFM) began a statistical sampling
program for all transactions in the Federal Financial System. Procedures for this review were set
forth in an instructional memorandum. All cardholder statements, with supporting receipts and
documentation, are subject to this review. This review includes an examination of&l individual
cardholder statements with monthly purchases of $10,000 or more, and the examination of
randomly selected samples of cardholder statements below that threshold. This review follows a
checklist to ensure that cardholders are not in violation of items includifig, but not limited to: use
of the card for travel expenses, rental of land or buildings, telephone services, or cash advances;
or that individual purchases were not split to avoid the $2,500 single purchase limit. Findings
from the reviews are then communicated to division administrative officers for further action, as
appropriate.

OAFA also conducts periodic reviews of transactions using the Cardholder Activity Report
provided by the bank. This report is reviewed and transactions are manually selected based
primarily on the dollar value, vendor used, and possible split requirements. To date, these
reviews have revealed minimal problems with compliance, and where appropriate, further action
was taken to remedy deficiencies.

Recommendation      3: Ensure that purchase cards are adequately safeguarded.

Response:     The USGS Handbook instructs cardholders to protect the International Merchant
Purchase Authorization Card (IMPAC) as they would their driver’s license; to keep the card in
a safe place, and not allow others to use their card. It also cautions users to keep the IMPAC
card separate from their personal credit cards to avoid accidental misuse. To date, we have
experienced very few instances of lost or stolen cards and believe these safeguards contribute to
these results.




                                                  11
                                                                                           APPENDIX 1
                                                                                           Page 3 of 3




Recommendation      4: Ensure that written procedures are developed for documenting the review
of purchase card transactions and that the USGS Reston offtce is included in the schedule for
these reviews.

Response: The USGS has developed written instructions for the use, documentation, and
oversight of the purchase card program: For example, Survey Manual chapter 403.7 entitled
“Commercial Purchase Cards” contains bureauwide policy for management of the commercial
purchase card program. The USGS Handbook outlines statement reconciliation responsibilities
and documentation procedures. Cardholders are also warned that these records are subject to
review at any time. Survey Manual Chapter 40 1.2 contains information on the Acquisition
Management Review program, which includes the review of cardholder activity. Additional
review programs implemented by the USGS are described in our response to Recommendation 2.
The AMR program covers acquisition activities in field offices, which make purchases under a
delegated procurement authority. The statistical sampling reviews and the cardholder activity
report reviews cover all USGS cardholders, including those in Reston.

Recommendation      5: Ensure that cardholders and approving officials receive adequate training
in the proper use of the purchase card.

Response:     The USGS developed a formal training regimen as of February 1995. Since that
time, OAFA has conducted numerous formal training sessions for cardholders and approving
officials nationwide. There are additional classes scheduled for fiscal year 1998, at least one at
each of the regional field offices. OAFA is also evaluating the development of an interactive
training application that could be adapted throughout all USGS field locations in an effort to
reach and train cardholders and approving officials in the more remote field offices.

In addition to the formal training program, training sessions are conducted by special request at
field office sites. Also, during scheduled AMR field reviews, the reviewing official often
arranges to conduct training for the cardholders at that location.

In an effort to enhance communication to cardholders and keep them appraised of program
changes, OAFA has established an Intranet site for bankcard information. The Snrvey Mannal
chapter, the USGS Bankcard Handbook, frequently asked questions, reminders to cardholders,
relevant memoranda or e-mail messages, and a variety of other useful information are maintained
at this site. The Intranet site and the use of all employee e-mail messages are seen as an efficient
method for making information available and notifying program participants of changes in the
USGS Handbook instructions, restrictions, and other areas of concern.




                                                  12
                                                             APPENDIX 2

          STATUS OF SURVEY REPORT RECOMMENDATIONS

Finding/Recommendation
      Reference                Status            Action Required

   1,2,4, and 5          Implemented.        No further action is required.

      3                  Unresolved.         Reconsider the response to
                                             indicate how assurance is
                                             provided that cardholders are
                                             safeguarding their purchase
                                             cards. Also, provide an
                                             action plan that includes
                                             target dates and titles of
                                             officials responsible for
                                             implementation.




                                        13
                ILLEGAL OR WASTEFUL ACTMTIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents     to:                              calling:


                     Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240


                                                         TDD for hearing impaired
                                                         (202) 208-2420 or
                                                         l-800-354-0996


                    Outside the Continental United States


                                    Caribbean   Redon

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Retzion

U.S. Department of the Interior                         (700) 550-7428 or
Office of Inspector General                             COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
 .
    :   Toil Free Numbers:
 :       l-800-424-5081            1,
 :       TDD l-800-354-0996
 :                                 E
 2                                 5
 :      m/Com&ercial    Numbers:
 1       (202) 208-5300
:I       TDD (202) 208-2420        I-


-
:
:       1849 C Street, N.W.

 I=
.a
:
